                                              EMPLOYMENT STANDARDS
Office of Inspector General—Office of Audit   ADMINISTRATION




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2008 and 2007




                                                This report was prepared by KPMG, LLP, under contract to the U.S.
                                                Department of Labor, Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.



                                                                         _______________________
                                                                        Assistant Inspector General for Audit




                                                                               Date:         February 20, 2009
                                                                               Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report


                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND

                                    TABLE OF CONTENTS
                                                                                         Page
ACRONYMS                                                                                    iii
Management’s Discussion and Analysis
   Mission and Organizational Structure                                                     1
   Financial Highlights                                                                     2
   Performance Goals and Results                                                            3
   Internal Controls and Systems                                                            3
   Known Risks and Uncertainties                                                            4
   Limitations of the Financial Statements                                                  4
Independent Auditors’ Report                                                                5
FINANCIAL STATEMENTS
   Balance Sheets                                                                           9
   Statements of Net Cost                                                                  10
   Statements of Changes in Net Position                                                   11
   Statements of Budgetary Resources                                                       12

NOTES TO THE FINANCIAL STATEMENTS
   Note 1 – Summary of Significant Accounting Policies                                     13
   Note 2 – Funds with U.S. Treasury                                                       16
   Note 3 – Investments                                                                    17
   Note 4 – Accounts Receivable, Net                                                       18
   Note 5 – Other Liabilities                                                              19
   Note 6 – Status of Budgetary Resources                                                  20
   Note 7 – Reconciliation of Budgetary Resources Obligated
            to Net Cost of Operations                                                      21
   Note 8 – Concentration of Risk                                                          21




_________________________________________________________________________________________
i                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




________________________________________________________________________________________
U.S. Department of Labor – Office of Inspector General                               ii
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND


                                           Acronyms



AUP           Agreed Upon Procedures
DCCA          District of Columbia Workmen’s Compensation Act
DLHWC         Division of Longshore and Harbor Workers’ Compensation
DOL           Department of Labor
ESA           Employment Standards Administration
FY            Fiscal Year
LHWCA         Longshore Harbor Workers’ Compensation Act
OMB           Office of Management and Budget
OWCP          Office of Workers’ Compensation Programs
U.S.C.        United States Code




_________________________________________________________________________________________
iii                                       U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                              iv
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                              September 30, 2008 and 2007


Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under Section 44 of the Longshore Harbor Workers’ Compensation Act
(LHWCA); the Longshore and Harbor Workers’ Compensation Act Special Fund created
under the original Act in 1927 and the Special Fund under the District of Columbia
Workmen’s Compensation Act of 1928 (DCCA). These Funds were established for the
primary purpose of equitably distributing among all employers the liabilities associated
with second injury claims (a “second injury” is an injury to a worker which, in combination
with an existing permanent partial impairment, results in the worker’s increased
permanent disability or death).

Organizationally the DCCA Fund (the Fund) is administered by the Employment
Standards Administration (ESA) Division of Longshore and Harbor Workers’
Compensation program (DLHWC) whose mission is to effectively administer a program
of compensation and medical benefits to cover workers who are injured on the job or
suffer from occupational disease. The DLHWC has direct responsibility for all aspects of
the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain
cases, medical care payments to District of Columbia employees for work related injuries
or death. Effective July 26, 1982, the District of Columbia became responsible for
administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation
services for job-related injuries, diseases or death of certain private-sector workers in the
District of Columbia. Generally, benefits are paid directly from private funds by an
authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the LHWCA as extended to DCCA are paid from the Fund
comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In fiscal year, (FY) 2008 and 2007, 582 and 603 injured workers and their
dependants received compensation benefits from the Fund.

Additionally, the District of Columbia Workmen’s Compensation Act incorporates Section
10(h) of the LHWCA, which provides annual wage increase compensation (cost of living
adjustments). Fifty percent of this annual wage increase for pre-1972 compensation
cases is paid by Federal appropriated funds, and fifty percent is paid by the Fund through

1                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 22-09-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


the annual assessment.

Appropriated funding for Section 10(h) is not reflected in the accompanying financial
statements. Appropriated funding is reflected in the Federal Employees Compensation
Act’s Special Benefits Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but
can only be disbursed as specified in Section 44(i) of the LHWCA. Administrative
services for operating the Fund are provided by the ESA through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the
accompanying financial statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$8,920,136 in FY 2008. This compares with assessment revenue of $11,264,567 for
fiscal year 2007. During FY 2008 no recoveries were made for the Fund due to activities
involving the application of Agreed Upon Procedures (AUP) on Forms LS-513, Report of
Payments (used in the calculation of the annual assessment), and negotiation/collection
of past due assessments. Equally important, the AUP activities have uncovered common
industry reporting errors and other industry record-keeping mistakes which, when
discovered, have been eliminated. The AUP program made recoveries in FY 2007 of
$1,093,355. These recoveries have and will continue to reduce carrier assessments and
are reflected in the Assessments line on the Statement of Changes in Net Position.

In addition, investment income for the Fund was $127,179 for FY 2008 compared to
$249,589 for FY 2007. The average interest rate earned during FY 2008 was 2.68%
compared to 5.12% for FY 2007.

The Fund’s costs remained relatively stable compared to FY 2007; $10,157,970 for FY
2008 compared to $9,817,496 for FY 2007. Proceeds of the Fund are used for payments
under: Section 8(f) for second injury claims; Section 10(h) for initial and subsequent
annual adjustments in compensation for permanent total disability or related death from
injuries which occurred prior to the effective date of the 1972 LHWCA amendments; and
Section 18(b) for compensation to injured workers in cases of employer default.



U.S. Department of Labor—Office of Inspector General                                          2
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


Performance Goals and Results

DCCA supports the Department of Labor’s Strategic Goal 4 – Strengthened Economic
Protections. This goal broadly promotes the economic security of workers and families. In
particular, the DCCA program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in
ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The DCCA program assists in meeting this outcome
goal by establishing the long term performance goal of ensuring sufficient funds are
assessed to fund the annual payments, and by prompt payment to the beneficiaries.
These targets were achieved. The assessments were sufficient to cover the costs, and
no beneficiaries suffered a delayed payment.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessments is a very small unit comprised of four
employees and one supervisor, all working in very close proximity to each other. Much of
the oversight, evaluation, monitoring, and control and almost all of the supervisory
activity is informal, done on a face-to-face basis. Similarly, each of the district offices is in
itself a small unit, operating in the same fashion as the Branch of Financial Management,
Insurance and Assessments.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.


_____________________________________________________________________________________
3                                     U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 22-09-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2008 and 2007


Known Risks and Uncertainties

The DCCA Fund makes assessments on authorized insurers and self-insurers one year
at a time for current expenses; there is no reserve for future Fund obligations. In keeping
with the requirement of Section 44 of the LHWCA, obligations are paid as they are
incurred. Assessments are based on compensation and medical benefits paid in the prior
calendar year. The District of Columbia Workmen’s Compensation Act of 1928 has been
repealed and the DC Special Fund only assesses based on payments in cases that
arose prior to July 26, 1982. The annual Special Fund assessment is assessed against a
shrinking base of industry payments. These payments are concentrated among a
relatively few insurance carriers and self insured employers. For example, the largest
nine insurance carriers and self-insured employers alone fund over 63% of the District of
Columbia assessments. If one or more of the largest payers became insolvent and was
unable to pay their assessment obligations, temporary collection issues would result,
necessitating special, unscheduled assessments or other actions to keep the Special
Fund funded for current liabilities.

One insurance company group is currently in run-off and is being operated by the State
of Illinois Insurance Department. The group is responsible for nearly 14% of the total
District of Columbia assessments. If the three carriers in the group were no longer able to
pay their assessments, the total District of Columbia assessment on solvent carriers
would increase significantly.
Limitations of the Financial Statements

The following limitations are part of the financial statements:

•   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, United States Code U.S.C. 3515 (b).
•   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by the Office of Management and Budget,
    (OMB), the statements are different from the financial reports used to monitor and
    control budgetary resources which are prepared from the same books and records.
•   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.
_____________________________________________________________________________________
U.S. Department of Labor – Office of Inspector General                              4
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036




                           Independent Auditors’ Report

Mr. John R. Correll, Deputy Assistant Secretary for Operations
Employment Standards Administration
U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) District of Columbia Workmen’s Compensation Act Special Fund
(the Fund) as of September 30, 2008 and 2007, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred
to as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2008 audit, we also considered the Fund’s
internal controls over financial reporting and tested the Fund’s compliance with
certain provisions of applicable laws and regulations that could have a direct and
material effect on these financial statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2008
and 2007, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

Our consideration of internal control over financial reporting would not
necessarily disclose all matters in the internal control that might be material
weaknesses as defined in the Internal Control Over Financial Reporting section
of this report. However, we noted no matters involving the internal control and its
operation that we considered to be material weaknesses as defined in this report.

The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal controls over financial reporting; our tests
of the Fund’s compliance with certain provisions of applicable laws and
regulations; and management’s and our responsibilities.
_____________________________________________________________________________
5                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 22-09-005-04-432
                           KPMG LLP, a U.S. limited liability partnership, is the U.S.
                           member firm of KPMG International, a Swiss cooperative.
                         District of Columbia Workmen’s Compensation Act Special Fund
                                   Financial Statements and Independent Auditors’ Report




OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s District of Columbia Workmen’s Compensation Act Special Fund as of
September 30, 2008 and 2007, and the related statements of net cost, changes
in net position and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s District
of Columbia Workmen’s Compensation Act Special Fund as of September 30,
2008 and 2007, and its net costs, changes in net position, and budgetary
resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.

The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the
limited purpose described in the Responsibilities section of this report and would
not necessarily identify all deficiencies in the internal control over financial
reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their
assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control
deficiencies, that adversely affects the Fund’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally
accepted accounting principles such that there is more than a remote likelihood
that a misstatement of the Fund’s financial statements that is more than
inconsequential will not be prevented or detected by the Fund’s internal control.
A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the
Fund’s internal control.

In our fiscal year 2008 audit, we did not identify any deficiencies in internal


U.S. Department of Labor—Office of Inspector General                                  6
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




control over financial reporting that we consider to be material weaknesses as
defined above.

COMPLIANCE AND OTHER MATTERS

The results of certain of our tests of compliance described in the Responsibilities
section of this report disclosed no instances of noncompliance or other matters
that are required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04.


                                       * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control; and complying
with laws and regulations applicable to the Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2008 and 2007 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

•   Assessing the accounting principles used and significant estimates made by
    management; and

•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.


7                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 22-09-005-04-432
                       District of Columbia Workmen’s Compensation Act Special Fund
                                 Financial Statements and Independent Auditors’ Report




In planning and performing our fiscal year 2008 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on
the financial statements. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to express an opinion on
the effectiveness of the Fund’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Fund’s
internal control over financial reporting.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2008 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the United States
Department of Labor’s management, Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to
be and should not be used by anyone other than these specified parties.




February 11, 2009




_____________________________________________________________________________
U.S. Department of Labor – Office of Inspector General                       8
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2008 and 2007


                         Assets                                      2008             2007
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                           $     438,900          75,274
   Investments (Note 3)                                            5,160,000       6,585,000
   Accounts receivable (Note 4)                                           —            1,460
            Total intra-governmental assets                        5,598,900       6,661,734
Accounts receivable, net of allowance (Note 4)                       190,578         327,411
           Total assets                                        $   5,789,478       6,989,145
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable                                     $     344,739         297,923
  Deferred revenue                                                 2,125,000       2,500,000
  Other liabilities (Note 5)                                         296,196          57,024
            Total liabilities                                      2,765,935       2,854,947
Net position:
  Cumulative results of operations                                 3,023,543       4,134,198
            Total liabilities and net position                 $   5,789,478       6,989,145


See accompanying notes to financial statements.




__________________________________________________________________________________________
9                                           U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 22-09-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report




                           DISTRICT OF COLUMBIA WORKMEN'S
                           COMPENSATION ACT SPECIAL FUND
                                      Statements of Net Cost
                            Years ended September 30, 2008 and 2007


                                                                       2008               2007
Special fund net cost of operations:
    Second injury compensation, Section 8(f)                    $    9,301,723          8,990,515
    Wage increase compensation, Section 10(h)                          630,060            613,237
    Compensation payment for self-insurer in default,
        Section 18(b)                                                  226,187            213,744
             Net cost of operations                             $   10,157,970          9,817,496


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                             10
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                           Years ended September 30, 2008 and 2007


                                                                     2008              2007
Cumulative results of operations, beginning                    $   4,134,198         2,437,538
Budgetary financing sources:
  Non-exchange revenues:
    Investment interest                                              127,179           249,589
    Assessments                                                    8,920,136        11,264,567
            Total non-exchange revenues                            9,047,315        11,514,156
Net cost of operations                                           (10,157,970)       (9,817,496)
            Net position, end of period                        $   3,023,543         4,134,198


See accompanying notes to financial statements.




__________________________________________________________________________________________
11                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                          DISTRICT OF COLUMBIA WORKMEN'S
                          COMPENSATION ACT SPECIAL FUND
                             Statements of Budgetary Resources
                         Years ended September 30, 2008 and 2007


                                                                   2008                 2007
Budgetary resources:
  Unobligated balance, brought forward                    $      6,364,276             5,529,106
  Budget authority
    Appropriations received (assessments)                        8,898,933           11,060,442
           Total budgetary resources                      $     15,263,209           16,589,548
Status of budgetary resources:
  Obligations incurred (Note 6)
     Direct                                               $     10,007,123           10,225,272
  Unobligated balances - available:
     Other available - exempt from apportionment                 5,256,086            6,364,276
            Total status of budgetary resources           $     15,263,209           16,589,548
Change in obligated balance:
  Obligated balance , net
    Unpaid obligations, brought forward, October 1        $        297,923              159,787
  Obliations incurred, net                                      10,007,123           10,225,272
  Less: Gross Outlays                                           (9,960,307)         (10,087,136)
  Obligated balance, net, end of period
    Unpaid obligations                                    $        344,739               297,923
Outlays:
 Gross Outlays                                            $      9,960,307           10,087,136
 Net outlays                                              $      9,960,307           10,087,136


See accompanying notes to financial statements.




__________________________________________________________________________________________
U.S. Department of Labor – Office of Inspector General                                  12
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2008 and 2007


 (1)    Summary of Significant Accounting Policies
       The principal accounting policies which have been followed by the Fund in preparing the
       accompanying financial statements are set forth below.
       (a)   Reporting Entity
             These financial statements present the financial position, net cost of operations,
             changes in net position, and budgetary resources of the District of Columbia
             Workmen’s Compensation Act Special Fund (the Fund). The Fund is administered
             by the Employment Standards Administration (ESA) which is an agency within the
             United States Department of Labor. Within ESA, the Division of Longshore and
             Harbor Workers’ Compensation has direct responsibility for administration of the
             Fund. The Fund offers compensation, and in certain cases, medical care payments
             to District of Columbia employees for work related injuries or death incurred on or
             before July 26, 1982. Effective July 26, 1982, the District of Columbia Workmen’s
             Compensation Act was amended whereby the Mayor of the District of Columbia
             became responsible for administration and operation of a separate special fund to
             cover post July 26, 1982, injury cases.
             Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h)
             provides annual wage increase compensation (cost of living adjustments). Fifty
             percent of this annual wage increase for pre-1972 compensation cases is paid by
             Federal appropriated funds and fifty percent is paid by the Fund through the annual
             assessment. Appropriated funding for 10(h) is not reflected in the accompanying
             financial statements. Appropriated funding is reflected in the Federal Employees
             Compensation Act’s Special Benefit Fund. Also, these financial statements do not
             include the Special Fund administered by the Mayor of the District of Columbia for
             injury cases occurring after July 26, 1982.
       (b)   Basis of Accounting and Presentation
             These financial statements present the financial position, net cost of operations,
             changes in net position and budgetary resources, in accordance with U.S. generally
             accepted accounting principles and the form and content requirements of OMB
             Circular A-136. These financial statements have been prepared from the books and
             records of the Fund. These financial statements are not intended to present, and do
             not present, the full cost of the District of Columbia Workmen’s Compensation
             (DCCA) program administered under the Longshore and Harbor Workers’

_________________________________________________________________________________________
13                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
                                        District of Columbia Workmen’s Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2008 and 2007


           Compensation Act Program (Longshore Program). In addition to the Fund costs
           presented in these statements, the full cost of the DCCA portion of the Longshore
           Program would include certain direct costs of ESA in the form of salaries and
           expenses for administration of the Longshore Program and allocated costs of ESA
           and other DOL agencies incurred in support of the Longshore Program. The full
           cost of the DCCA portion of the Longshore Program is included in the Consolidated
           Financial Statements of the U.S. Department of Labor.
           U.S. generally accepted accounting principles encompass both accrual and
           budgetary transactions. Under accrual accounting, revenues are recognized when
           earned, and expenses are recognized when a liability is incurred. Budgetary
           accounting facilitates compliance with legal constraints on, and controls over, the
           use of federal funds. These financial statements are different from the financial
           reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
           Fund’s use of budgetary resources.
     (c)   Funds with U.S. Treasury
           The Fund does not maintain cash in commercial bank accounts. Cash receipts and
           disbursements are processed by the U.S. Treasury. The Funds with U.S. Treasury
           are trust funds that are available to pay current liabilities and finance authorized
           purchase commitments.
     (d)   Investments
           Investments in U.S. Government securities are reported at cost, net of unamortized
           premiums or discounts, which approximate market value. Premiums or discounts
           are amortized on a straight-line basis, which approximates the effective interest
           method. The Fund’s intent is to hold investments to maturity, unless they are
           needed to finance claims or otherwise sustain the operations of the Fund. No
           provision is made for unrealized gains or losses on these securities because, in the
           majority of cases, they are held to maturity.
     (e)   Accounts Receivable, Net of Allowance
           The amounts due as receivables are stated net of an allowance for uncollectible
           accounts. The allowance is estimated based on past experience in the collection of
           the receivables and an analysis of the outstanding balances. Also included as
           benefit overpayments receivable are Fund overpayments to beneficiaries made to


U.S. Department of Labor – Office of Inspector General                                              14
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND
                               Notes to the Financial Statements
                          Years ended September 30, 2008 and 2007


           individuals primarily from awarded compensation orders and corrections of payment
           computations.
     (f)   Accrued Benefits Payable
           The District of Columbia Workmen’s Compensation Special Fund provides
           compensation and medical benefits for work related injuries to employees of the
           District of Columbia that were incurred on or before July 26, 1982. The Fund
           recognizes a liability for disability benefits payable to the extent of unpaid benefits
           applicable to the current period. It does not include a liability for those estimated
           claims to be presented and paid by the fund related to covered workers in future
           years. Ultimate responsibility for the payment of such claims rests with the
           employer organizations.
     (g)   Assessment Overpayment by Carriers
           Assessment overpayments are current liabilities and are to be refunded upon
           insurance carrier or self-insured employer’s request or applied to reduce future
           assessments.
     (h)   Deferred Revenue
           Deferred revenues represent the unearned assessment revenue as of
           September 30, the Fund’s accounting year end. The annual assessments cover a
           calendar year and, accordingly, the portion extending beyond September 30 has
           been deferred. Deferred revenues reported on the balance sheets are considered
           “Other Liabilities” under OMB Circular A-136.
     (i)   Financing Sources Other Than Exchange Revenue
           Non-exchange revenues arise from the Federal government’s power to demand
           payments from and receive donations from the public. Non-exchange revenues are
           recognized by the Fund for assessments levied against the public and interest
           income from investments.
           The Fund’s primary source of revenue is annual assessments levied on insurance
           carriers and self-insured employers. Assessments are recognized as non-exchange
           revenue when due. Included in assessment revenues in the accompanying
           Statement of Changes in Net Position are recoveries of amounts reassessed to
           carriers related to prior years. These reassessments primarily result from the
           application of Agreed Upon Procedures (AUP) on reported carrier data. No

15                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-09-005-04-432
                                              District of Columbia Workmen’s Compensation Act Special Fund
                                                        Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                   Notes to the Financial Statements
                            Years ended September 30, 2008 and 2007
              recoveries were made during fiscal year ended September 30, 2008; however,
              recoveries amounted to $1,093,355 for the fiscal year ended September 30, 2007.
              The AUP process was just introduced in FY 2007. The Fund also receives interest
              on Fund investments and on Federal funds in the possession of non-Federal
              entities.
 (2)    Funds with U.S. Treasury
       Funds with U.S. Treasury at September 30, 2008 and 2007 consisted of cash deposits of
       $438,900 and $75,274 respectively. There was $31 in cash deposits at September 30,
       2008 and $24 in cash deposits at September 30, 2007 being held as security by authority
       of Section 32 of the Longshore and Harbor Workers’ Compensation Act in the Funds with
       U.S. Treasury balance. Section 32 funds relate to the default of self-insured employers
       and are available for payment of compensation and medical benefits to covered
       employees of the defaulted companies.
       Funds with U.S. Treasury at September 30, 2008 consisted of the following:
                                                       Entity Assets
                                Unobligated     Unobligated     Obligated
                                 Balance         Balance       Balance Not    Total       Non-entity
       (In Dollars)              Available      Unavailable Yet Disbursed Entity Assets    Assets      Total

       Special Fund         $           —               —        438,900       438,900            —    438,900



       Funds with U.S. Treasury at September 30, 2007 consisted of the following:
                                                       Entity Assets
                                Unobligated     Unobligated     Obligated
                                 Balance         Balance       Balance Not    Total       Non-entity
       (In Dollars)              Available      Unavailable Yet Disbursed Entity Assets    Assets      Total

       Special Fund         $           —               —         75,274       75,274            —      75,274




U.S. Department of Labor—Office of Inspector General                                                             16
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                            Years ended September 30, 2008 and 2007


 (3)    Investments
       Investments at September 30, 2008 and 2007 consisted of the following:
                                                          September 30, 2008
                                            Face        Premium          Net          Market
       (In Dollars)                         Value      (Discount)      Value          Value
       Intragovernmental securities:
          Marketable                   $   5,160,000           —     5,160,000       5,160,000


                                                          September 30, 2007
                                            Face        Premium          Net          Market
       (In Dollars)                         Value      (Discount)      Value          Value
       Intragovernmental securities:
          Marketable                   $   6,585,000           —     6,585,000       6,585,000


       Investments of $58,600 and $57,000 at September 30, 2008 and 2007, respectively are
       being held as security by authority of Section 32 of the Longshore and Harbor Workers’
       Compensation Act. Section 32 investments relate to the default of self-insured employers
       and are restricted. These investments are available for payment of compensation and
       medical benefits to covered employees of the defaulted companies. Investments at
       September 30, 2008 and 2007 consist of overnight securities. Investments at
       September 30, 2008, bear an interest rate of 0.33 % compared to an interest rate of
       3.99% for September 30, 2007. Interest rates on securities bought and sold during fiscal
       year 2008 ranged from 0.25% to 4.95% compared to 2.16% to 5.35% for fiscal year
       2007.




_________________________________________________________________________________________
17                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
                                              District of Columbia Workmen’s Compensation Act Special Fund
                                                        Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND
                                       Notes to the Financial Statements
                                 Years ended September 30, 2008 and 2007


 (4)    Accounts Receivable, Net
       Accounts receivable at September 30, 2008 and 2007 consisted of the following:
       (In Dollars)                                                             2008                  2007
       Entity assets:
       Intragovernmental:
          Interest Receivable                                           $            —       $          1,460
             Total Intragovernmental accounts receivable                $            —       $          1,460

          Benefit overpayments                                          $       193,209      $        341,425
          Assessments receivable                                                     —                 95,123
          Less: allowance for doubtful accounts                                  (2,631)             (109,137)
            Total accounts receivable from the public, net              $       190,578      $        327,411

       Assessments receivable represent the unpaid annual assessments from the current and
       prior years. Accounts receivable from overpayments to claimants arise primarily from
       amended compensation orders and corrections of payment computations. These
       receivables are being primarily recovered by partial and total withholding of benefit
       payments.
       Changes in the allowance for doubtful accounts during FY 2008 and FY 2007 consisted
       of the following:
                                                                         2008
                                        Allowance        Write      Revenue                          Allowance
       (In Dollars)                   October 1, 2007    Offs      Adjustment    Bad Debt        September 30, 2008

       Entity assets:
         Benefit overpayments     $          (85,357)        —              —      82,726                    (2,631)
         Assessment receivable               (23,780)    94,003             —     (70,223)                       —

                                  $         (109,137)    94,003             —      12,503                    (2,631)




U.S. Department of Labor—Office of Inspector General                                                            18
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                  COMPENSATION ACT SPECIAL FUND
                                         Notes to the Financial Statements
                                 Years ended September 30, 2008 and 2007


                                                                                 2007
                                          Allowance         Write            Revenue                          Allowance
       (In Dollars)                     October 1, 2006     Offs            Adjustment     Bad Debt       September 30, 2007

       Entity assets:
         Benefit overpayments       $            (14,108)           —              —         (71,249)               (85,357)
         Assessment receivable                  (123,089)           —              —          99,309                (23,780)

                                    $           (137,197)           —              —         28,060                (109,137)



 (5)    Other Liabilities
       Other liabilities at September 30, 2008 and 2007 consisted of the following current
       liabilities:
       (In Dollars)                                                              2008                 2007
       Other liabilities:
          Assessment overpayments by carriers                           $        237,565                     —
          Defaulted employer liability:
            Held in investments                                                   58,600                57,000
            Held in cash                                                              31                    24
                                                                                  58,631                57,024
                      Total other liabilities                           $        296,196                57,024


       Assessment overpayments are to be refunded upon request or applied to reduce future
       assessments.
       Defaulted employer liability relates to the funds and investments held by the District of
       Columbia Special Fund which are being held as security by authority of Section 32 of the
       Act. These funds and investments are available for compensation and medical benefits
       to covered employees of the defaulted companies. Management estimates that these
       funds and investments held will be sufficient to cover the future benefits associated with
       the covered employees.




_________________________________________________________________________________________
19                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
                                          District of Columbia Workmen’s Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report

                               DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND
                                     Notes to the Financial Statements
                              Years ended September 30, 2008 and 2007


 (6)    Status of Budgetary Resources
       (a)   Apportionment Categories of Obligations Incurred
             Obligations incurred reported on the Statement of Budgetary Resources in FY 2008
             and FY 2007 consisted of the following:
             (In Dollars)                                                    2008             2007
             Direct Obligations:
                Exempt from apportionment                           $    10,007,123         10,225,272


       (b)   Explanation of Differences Between the Statement of Budgetary Resources
             and the Budget of the United States Government
             A reconciliation of budgetary resources, obligations incurred and outlays, as
             presented in the Statement of Budgetary Resources to amounts included in the
             Budget of the United States Government for the year ended September 30, 2007 is
             shown below:
                                                                                2007
                                                               Budgetary      Obligations
             (Dollars in Millions)                             Resources       Incurred       Outlays
             Statement of Budgetary Resources - LSHW       $        198               132         134

             Statement of Budgetary Resources - DCCA                    17            10             10

             Total Statement of Budgetary Resources                 215               142         144

             Budget of the United States Government        $        215               142         144




U.S. Department of Labor—Office of Inspector General                                                      20
Report Number: 22-09-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                                DISTRICT OF COLUMBIA WORKMEN’S
                                COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                                Years ended September 30, 2008 and 2007


 (7)    Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                           2008          2007
         Obligations incurred                                       $   10,007,123    10,225,272
                    Total resources used to finance activities          10,007,123    10,225,272
         Resources used to finance items not part of the
           net cost of operations
           Resources that finance the acquisition of assets                       —             —
                    Total resources used to finance items
                      not part of the net cost of operations                      —             —
                    Total Resources used to finance the
                      net cost of operations                            10,007,123    10,225,272
         Components not requiring or generating resources:
           Revaluation of assets and liabilities                               —             —
           Other                                                          150,847      (407,776)
                    Total components of net cost of operations
                      that will not require or generate resources         150,847      (407,776)
                        in the current period
                    Net cost of operations                          $   10,157,970     9,817,496




 (8)    Concentration of Risk
       The Fund makes assessments to authorized insurers and self-insurers one year at a
       time for current expenses; there is no reserve for future Fund obligations. In keeping
       with the requirement of Section 44 of the Longshore and Harbor Workers’ Compensation
       Act, obligations are paid as they are incurred. Assessments are based on compensation
       and medical benefits paid in the prior calendar year. As previously discussed, the
       District of Columbia Workmen’s Compensation Act of 1928 has been repealed and the
       Fund only assesses based on payments in cases that arose on or before July 26, 1982.
       Therefore, the annual Special Fund assessment is assessed for a shrinking population of
       claims. These assessments are concentrated among a relatively few insurance carriers
       and self insured employers. For example, the largest nine insurance carriers and self
       insured employers alone fund over 63% of the Fund assessments.



_________________________________________________________________________________________
21                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 22-09-005-04-432
